OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/NAMIBIA’S
HIV/AIDS CARE PROGRAM


AUDIT REPORT NO. 4-673-11-011-P
AUGUST 15, 2011




PRETORIA, SOUTH AFRICA
Office of Inspector General


August 15, 2011

MEMORANDUM

TO:                  USAID/Namibia Mission Director, Elzadia Washington-Danaux

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Namibia’s HIV/AIDS Care Program
                     (Report Number 4-673-11-011-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them as appropriate.
Management comments have been included in their entirety in Appendix II.

This report includes two recommendations to strengthen the mission’s HIV/AIDS care activities.
Based on management’s comments on the draft report, management decisions have been
reached on both recommendations and final action has been taken on Recommendation 2.
Please provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendation 1. Recommendation 2 is closed upon
report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 6

     Ministries Remained Dependent on USAID Assistance ......................................................... 6

     Subrecipient Funds Lacked Accountability ............................................................................ 8

Evaluation of Management Comments.................................................................................. 10

Appendix I – Scope and Methodology ................................................................................... 11

Appendix II – Management Comments .................................................................................. 14




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOTR            agreement officer’s technical representative
ePMS            Electronic Patient Management System
FY              fiscal year
KAYEC           Katutura Youth Enterprise Centre Trust
OGAC            Office of the U.S. Global AIDS Coordinator
OVC             orphans and vulnerable children
PEPFAR          President’s Emergency Plan for AIDS Relief
SUMMARY OF RESULTS
Since the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
was enacted1, the President’s Emergency Plan for AIDS Relief (PEPFAR) has coordinated the
U.S. Government’s international response to HIV/AIDS. This commitment was expanded in
2008 with the Tom Lantos and Henry J. Hyde United States Global Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110-293). Under
this legislation, PEPFAR established targets for HIV prevention, HIV treatment, the care and
support of those infected with and affected by HIV/AIDS, and the sustainability of all three
efforts. For the third target, PEPFAR seeks to provide care services to 12 million people,
including 5 million orphans and vulnerable children (OVC),2 from fiscal year (FY) 2010 to
FY 2014.

PEPFAR defines care services as a broad range of activities, exclusive of treatment, that are
available to HIV-infected and -affected individuals.        These activities, including clinical,
psychological, social, spiritual, and preventive services, seek to increase retention in patient
treatment programs, maximize functional ability, and minimize morbidity. In Namibia, where an
estimated 13.3 percent of the adult population (ages 15–49) has HIV,3 care services are of
paramount importance.

In FY 2010, the main bilaterally funded service-delivery programs were the Namibia HIV
Prevention, Care and Support Project and the Community REACH Namibia Program, which are
described below.

    Namibia HIV Prevention, Care and Support Project (IntraHealth). As of September 30,
    2010, USAID/Namibia had obligated $18.9 million to the Namibia HIV Prevention, Care and
    Support Project, of which $16.9 million had been disbursed. Over the life of this cooperative
    agreement (November 26, 2008, to November 25, 2013), USAID expects to spend
    approximately $49 million on the project.4 The project is implemented by IntraHealth, whose
    main goal is to build the technical capacity of Namibian organizations to implement HIV/AIDS
    programs. In light of this goal, IntraHealth does not provide care services; instead, IntraHealth
    assists and provides subgrants to smaller, faith-based organizations that focus on service
    delivery. In FY 2010, IntraHealth supported three primary subpartners that delivered care
    services: Lutheran Medical Services, Catholic Health Services, and Anglican Medical
    Services. Lutheran Medical Services operates only one hospital, but it is one of the largest
    hospitals in Namibia. In FY 2010, IntraHealth obligated $1.2 million to Lutheran Medical
    Services. Catholic Health Services operates four hospitals across three regions. In FY 2010,
    IntraHealth obligated $2 million to them. Anglican Medical Services operates one health


1
  The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003, Pub. L. No.
108-25 (codified as amended in scattered sections of 22 U.S.C.).
2
  PEPFAR defines an orphan as a child, 0–17 years old, who has lost one or more parents to HIV/AIDS.
A vulnerable child is defined as one, 0–17 years old, who is more vulnerable because he or she is HIV
positive; lives without adequate adult support; lives outside of family care; or is marginalized, stigmatized,
or discriminated against.
3
  Ministry of Health and Social Services [Namibia], Directorate of Special Programmes, 2008/2009
Estimates and Projections of the Impact of HIV/AIDS in Namibia, December 2009.
4
  USAID/Namibia noted that a modification to the cooperative agreement for the Namibia HIV Prevention,
Care and Support Project is currently under way.


                                                                                                            1
   facility. Although IntraHealth only started obligating funds to Anglican Medical Services in
   FY 2011, IntraHealth did second its own staff to assist the organization during FY 2010.




These HIV clinics in the Oshikoto and Omusati Regions were built with PEPFAR resources and are
supported by the Namibia HIV Prevention, Care and Support Project. (Photographs by Office of
Inspector General, March 2011)

   Community REACH Namibia Program (Pact).                      As of September 30, 2010,
   USAID/Namibia had obligated $19.8 million to the Community REACH Namibia Program, of
   which $17.9 million had been disbursed. The 5-year cooperative agreement, effective
   September 26, 2007, was originally scheduled to cost $40 million. However, a modification
   finalized November 19, 2010, reduced the total estimated cost to $32 million. The program
   is implemented by Pact, whose main goal is to scale up and sustain comprehensive HIV and
   AIDS services through Namibian and international implementing partners. In FY 2010,
   Pact’s activities under this goal included support to the Namibian Ministry of Gender Equality
   and Child Welfare and capacity-building support to smaller, service-delivery organizations,
   coupled with subgrants. Although many of the subgrantees’ awards ended in 2010, six
   awards were still active at the end of the year, including three to the larger care-providing
   subgrantees: Catholic AIDS Action, LifeLine/ChildLine, and Katutura Youth Enterprise
   Centre Trust (KAYEC). Pact obligated $2.3 million in subgrants to Catholic AIDS Action in
   FY 2010. It is the largest of the subgrantees, with 14 regional offices in Namibia delivering
   services to OVC and offering home-based care. Pact obligated approximately $897,000 to
   LifeLine/ChildLine in FY 2010. LifeLine/ChildLine operates with two other subgrantees to
   offer child protection services and raise awareness of children’s rights. In FY 2010, Pact
   obligated approximately $324,000 to KAYEC to provide vocational training and educational
   and psychosocial support to OVC.




                                                                                               2
KAYEC’s vocational training and OVC facility in Windhoek displays student tradework.
(Photographs by Office of Inspector General, March 2011)

The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/Namibia’s bilateral HIV/AIDS care program was achieving its main goal of caring for and
supporting HIV-infected and -affected individuals. Additionally, the team sought to determine
whether USAID/Namibia had effectively implemented recommendations from the 2008 audit of
selected partners’ PEPFAR activities; those recommendations related to strengthening
USAID/Namibia’s monitoring of its PEPFAR program.5

The audit determined that USAID/Namibia’s bilateral HIV/AIDS care program was achieving its
main goal of caring for and supporting HIV-infected and -affected individuals. Activities under
USAID/Namibia’s bilateral HIV/AIDS care program complied with guidance issued by the Office
of the U.S. Global AIDS Coordinator (OGAC) to benefit HIV-infected and -affected Namibians,
and achieved service-delivery targets.

    Compliance With OGAC Guidance. Under its palliative care guidance, OGAC calls for
    comprehensive services aimed at achieving an optimal quality of life for people living with
    HIV/AIDS and their families.6 The HIV clinics supported by the Namibia HIV Prevention,
    Care and Support Project do just that by offering clinical, psychological, spiritual, and social
    care to patients. For example, a patient referred for treatment at the HIV clinic run by
    Catholic Health Services in Oshikuku will receive pretreatment counseling in both group and
    individual settings. During treatment, the patient continues to receive clinical care and
    counseling from nurses. If he or she meets selection criteria, the patient may also receive
    spiritual counseling. In recent years, facilities supported by the Namibia HIV Prevention,
    Care and Support Project reported having better treatment adherence rates than the
    country’s average,7 and clinic workers attributed improved treatment adherence to the care
    services provided.

    Subrecipients supported by the Community REACH Namibia Program complement the
    facility-based care services by offering home- and community-based care services. For
5
  Audit of Selected Partners Implementing USAID/Namibia’s President’s Emergency Plan for AIDS Relief,
Report No. 4-673-08-005-P, July 31, 2008.
6
  ―HIV/AIDS Palliative Care Guidance #1 For the United States Government in–Country Staff and
Implementing Partners,‖ February 3, 2006.
7
   The country’s average was obtained from United Nations General Assembly Special Session
(UNGASS) Country Report: Reporting Period 2008–2009, Republic of Namibia Ministry of Health and
Social Services, 2010.


                                                                                                   3
    example, in the Omusati Region, Catholic AIDS Action organizes volunteers to provide
    home-based care, support for OVC, and prevention services in 19 communities. During site
    visits, community members reported that the community-based care activities led to a
    reduced level of HIV-related stigma.

    In its OVC programming guidance, OGAC categorizes three types of interventions: child level,
    caregiver or family level, and systems level.8 The Community REACH Namibia Program
    included activities to address each of these. At the child level, Catholic AIDS Action
    operated soup kitchens and after-school programs for OVC, while KAYEC also ran a youth
    development program. Participants in KAYEC’s youth development program reportedly
    pass their school grades at a higher rate than their counterparts. KAYEC also offered
    vocational training that ultimately benefits vulnerable dependents at the caregiver or family
    level. At the systems level, LifeLine/ChildLine’s effort to establish a national phone number
    for reporting child abuse is strengthening the structures and networks that should lead to
    comprehensive and effective care. Additionally, Pact provided support to the Ministry of
    Gender Equality and Child Welfare and built the capacity of local nongovernmental
    organizations, some of which are now eligible for direct funding from USAID.

    Achievement of Service Delivery Targets. To measure progress toward legislative goals
    aimed at combating HIV/AIDS, OGAC established common indicators on which country
    teams are required to report. Under the category of care, the required indicator, number of
    eligible adults and children provided with a minimum of one care service, reflects the
    legislative goal of providing care services to 12 million people, including 5 million OVC,
    between FY 2010 and FY 2014. In FY 2010, the target for Namibia was to provide
    approximately 111,000 individuals with care services, 85,000 through bilateral USAID
    programs. USAID/Namibia reported exceeding this target by roughly 2,000 individuals 9
    (Table 1).

                         Table 1. Number of Eligible Adults and Children
                         Provided With a Minimum of One Care Service*

                      Program                              FY 2010         FY 2010         Percentage of
                                                            Target          Result        Target Reached
Namibia HIV Prevention, Care and                            21,000          31,607               151
Support Project (IntraHealth)
Community REACH Namibia Program (Pact)                      63,544          56,093                  88†
                      Total                                 84,544          87,700                 104

* As described in Appendix I, to validate the FY 2010 results, the audit team compared care indicator data
reported to USAID by partner head offices with data retained at subpartner facilities and reviewed controls in
the data collection process. The audit team did not note any significant issues with the reported program data
or in the FY 2010 monitoring and evaluation processes of USAID or prime partners.
†
  Pact notes that FY 2010 targets did not reflect adjustments in programming made at USAID’s request.
Adjustments included ending programs after Quarter 2 instead of Quarter 4, ending another grant entirely, and
terminating planned solicitations for new awards.


8
  ―Orphans and Other Vulnerable Children Programming Guidance for United States Government In-
Country Staff and Implementing Partners,‖ July 2006.
9
  Although the audit identified overstatements in the numbers reported by the implementing partners,
these differences did not significantly affect the reported results.


                                                                                                            4
As for implementing the prior recommendations, USAID/Namibia’s Health Office has made
significant improvements in its monitoring and oversight activities since the last audit. Table 2
details the status of the recommendations made in the Office of Inspector General’s July 31,
2008, audit.

     Table 2. Status of Recommendations Made in Audit Report No. 4-673-08-005-P

                      Recommendation                                      Status
We recommend that USAID/Namibia develop a                USAID/Namibia has a performance
performance management plan that incorporates its        management plan that incorporates a
President’s Emergency Plan for AIDS Relief activities.   section on HIV/AIDS.
We recommend that USAID/Namibia complete its             USAID/Namibia has decreased the
recruiting to fill the vacancies for its President’s     number of vacant positions since 2008
Emergency Plan for AIDS Relief program.                  from eight to four, only two of which
                                                         are within the PEPFAR technical team.
We recommend that USAID/Namibia perform a risk           USAID/Namibia finalized a site visit
assessment of its President’s Emergency Plan for         risk assessment in June 2009 and
AIDS Relief partners to determine the frequency and      subsequently completed site visits.
focus of site visits to be made to those partners.
We recommend that USAID/Namibia develop a plan           USAID/Namibia now maintains a site
for its staff to periodically validate its President’s   visit schedule for its HIV/AIDS
Emergency Plan for AIDS Relief partners’ data during     activities.
site visits.

Despite the positive findings noted above, the audit identified areas for improvement to further
the effectiveness of USAID/Namibia’s care program. Specifically, the audit noted the following
problems:

   Ministries remained dependent on USAID assistance (page 6).

   Subrecipient funds lacked accountability (page 8).

To strengthen these areas, this audit recommends that the mission:

1. Update its procedures for the annual work plan review process to include a requirement for
   the completion and review of an exit plan for any implementing partner that provides direct
   assistance to Government of Namibia ministries (page 8).

2. Remind IntraHealth, in writing, of its responsibilities under its agreement to ensure that
   required audits are performed, and request notification from IntraHealth when prior audits
   have been completed (page 9).

Detailed findings appear in the following section. Appendix I presents the scope and
methodology. Management comments are included in their entirety in Appendix II, and an
evaluation of management comments is included on page 10.




                                                                                               5
AUDIT FINDINGS
Ministries Remained
Dependent on USAID Assistance
The Tom Lantos and Henry J. Hyde United States Global Leadership against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 directs that HIV/AIDS strategies
emphasize capacity-building initiatives in order to promote a transition toward greater
sustainability through the support of country-driven efforts.10 Echoing that emphasis, in
testimony before the Senate Committee on Foreign Relations, an assistant administrator from
USAID stated that USAID’s approach is to shift from providing aid to building the capacity of
countries to provide for themselves. USAID ―will continue to use outside contractors where
appropriate, but will direct more assistance to local entities in order to strengthen them and
reduce dependence on outside assistance.‖11

In accordance with this guidance, Pact, under the mission’s Community REACH Namibia
Program, supported the Namibian Ministry of Gender Equality and Child Welfare with technical
advisors and capacity building in various forms. One of the goals of this support was to improve
transparency and accountability by building the capacity of the Ministry to monitor, evaluate, and
report on data related to OVC. As part of this, Pact facilitated the implementation of a national
OVC database and a system for reporting data by providing a database consultant. The
consultant also assisted with the development of the !Nam Child Wiki Web site (pictured on the
following page), which links to OVC policies, guidelines, and tools, as well as to the OVC
database. This consultant worked with the Ministry for approximately 2 years at a cost of about
$91,000 a year. Officials from the Ministry, including social workers posted in the northern
regions of the country, were pleased with these tools and commented on their initial
effectiveness. However, because the Ministry did not find a qualified individual to train to take
over the consultant’s responsibilities, the Ministry remained dependent on outside assistance.




10
  Section 204 of Public Law 110-293.
11
  Testimony of Mark Feierstein, Assistant Administrator for Latin America and the Caribbean, United
States Agency for International Development, Before the Committee on Foreign Relations, United States
Senate, February 16, 2011.


                                                                                                   6
This page greets visitors to the !Nam Child Wiki Web site (http://namchild.gov.na,
as captured on March 15, 2011).

Similarly, an electronic patient management system (ePMS) was developed by the chief of party
for the mission’s Namibia HIV Prevention, Care and Support Project. It has been in use in at
least one facility since 2004, and since 2007 has been in use at most public HIV clinics in
Namibia. However, despite 2 years of efforts to build capacity within the Ministry of Health and
Social Services for ePMS support, staff remained dependent on the system’s creator for all but
basic administrative functions.

If the implementing partners had included an exit plan in their annual work plans, USAID and
the implementing partners would have had a means to evaluate whether the ministries were on
track to make the transition from outside assistance to self-sufficiency. To be effective, this exit
plan would have described when and how the partner was going to hand over responsibilities
for specific activities to the particular ministry. However, PEPFAR did not make the
sustainability of HIV/AIDS investments a priority until the 2008 reauthorization, and therefore the
mission did not require implementing partners to establish such exit plans when specific
activities supporting the ministries began. The audit concludes that this is why these programs
have been unsuccessful in reducing the ministries’ dependence on outside assistance.

When support to the ministries is scheduled to end and exit plans are not in place, USAID must
either continue the support at the expense of other initiatives, or watch as the effectiveness of
its investments wanes. In the case of the OVC database and Web site, social workers in the
field reported that they no longer receive the same level of support that they used to receive
from the head office, As a result, the data in the reports that they are able to pull are not as
meaningful to them when they review and plan OVC activities in their regions. Additionally, the
!Nam Child Wiki Web site was noted to be offline for several days during the audit. Under the
November 2010 modification of the agreement, USAID extended the consultancy for an
additional 4 to 7 months. Based on the FY 2010 cost of the consultant, this extension will cost
the program approximately $30,000 to $53,000. The mission has begun to address the
sustainability of its investments of the Community REACH Namibia Program and the Namibia




                                                                                                  7
HIV Prevention, Care and Support Project through agreement modifications. However, to prevent
similar problems in future programming, this audit makes the following recommendation:

     Recommendation 1. We recommend that USAID/Namibia update its procedures for
     the annual work plan review process to include a requirement for the completion and
     review of an exit plan for any implementing partner that provides direct assistance to
     Government of Namibia ministries.

Subrecipient Funds
Lacked Accountability
According to the designation letter12 for the IntraHealth agreement, the agreement officer’s
technical representative (AOTR) is responsible for (1) monitoring the recipient's progress in
achieving the objectives of the project and (2) verifying that the recipient’s USAID-funded
activities conform to the terms of the award. The IntraHealth agreement includes the following:

1. The main goal of the Namibia HIV Prevention, Care and Support Project is to build the
   technical capacity of Namibian organizations to implement HIV/AIDS programs. One of the
   objectives of this project is to promote organizational leadership and management in areas,
   including financial accountability.

2. Under a standard provision in its agreement with USAID, IntraHealth should ensure that any
   foreign nonprofit organization or subrecipient that expends $300,000 or more in USAID
   awards during its fiscal year has an annual audit conducted of those funds in accordance
   with the Guidelines for Financial Audits Contracted by Foreign Recipients, published by the
   Office of Inspector General.

However, this audit concludes that USAID/Namibia did not take action to ensure that IntraHealth
met its responsibilities with respect to building subrecipients’ financial accountability in that
neither Catholic Health Services nor Lutheran Medical Services, both IntraHealth subrecipients,
was prepared for its required annual audits. Specifically:

     Catholic Health Services was unable to provide adequate evidence supporting its financial
     statements. According to Catholic Health Services’ audit report for the period ended March
     31, 2010, the auditors stated that because of significant accounting problems, they were not
     able to obtain ―sufficient appropriate audit evidence to provide [a] basis for an audit opinion.‖
     The auditors, therefore, did not provide an opinion as to whether Catholic Health Services’
     financial statements were fairly presented in accordance with the applicable standards.

     Lutheran Medical Services, which received $1.2 million in FY 2010, and similar amounts in
     FY 2009, had not had a financial audit covering periods past November 2008. Although
     IntraHealth is currently taking steps to ensure that required audits are performed, it has not
     yet met the terms of its agreement for Lutheran Medical Services.




12
  The USAID agreement officer provides a designation letter to the AOTR that outlines the AOTR’s
administrative responsibilities and authorities for the agreement.


                                                                                                    8
USAID/Namibia did not take action to ensure that IntraHealth met the above responsibilities
because—

   Although IntraHealth was working on capacity-building activities to prepare subpartners for
   eligibility to receive direct funding from USAID and had hired a consultant in March 2010 to
   assist Catholic Health Services with its financial system, the consultant did not start assisting
   the subrecipient until the end of FY 2010.

   As stipulated by USAID’s Automated Directives System (ADS) 591.3.2.1, subrecipients
   submit copies of their audits to the prime recipient for review as part of the prime recipient’s
   annual audit. If the audit firm conducting the annual audit determines that the subrecipient
   is not performing audits or that the audits are deficient or defective, the firm will include a
   recommendation in the prime recipient’s audit report to have the defective issues corrected.
   Although IntraHealth’s independent audits from 2009 and 2010 did note significant
   deficiencies in the monitoring of subrecipients, IntraHealth is a U.S.-based organization
   whose audit reports are transmitted to USAID/Washington, not to the mission. In other
   words, USAID/Namibia did not know the status of the subrecipient audits.

Without assurance from an independent audit that strong accounting and financial systems are
in place, neither USAID nor its stakeholders have assurance that the $3.2 million provided to
Catholic Health Services and Lutheran Medical Services in FY 2010, or years prior, has been
properly spent. Because of this, this audit makes the following recommendation:

   Recommendation 2. We recommend that USAID/Namibia remind IntraHealth, in
   writing, of its responsibilities under its agreement to ensure that required audits are
   performed, and request notification from IntraHealth when prior audits have been
   completed.




                                                                                                  9
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Namibia agreed with both recommendations.
Management decisions have been reached on Recommendations 1 and 2, and final action has
been taken on Recommendation 2. A detailed evaluation of management comments follows.

Recommendation 1. USAID/Namibia agreed to incorporate the completion and review of an
exit strategy for any implementing partners that provide direct assistance to the Government of
Namibia in the annual work plan approval process. Instructions will be sent to the appropriate
staff by August 15, 2011. As a result, a management decision has been reached on
Recommendation 1.

We note that phrasing of Recommendation 1 was amended between issuance of the draft
report and receipt of final management comments, based on feedback from USAID/Namibia
officials.

Recommendation 2. USAID/Namibia agreed to remind IntraHealth of its responsibility to
ensure that financial audits are performed. The mission provided a letter dated July 8, 2011,
addressed to IntraHealth, which serves this purpose. As a result, a management decision has
been reached, and final action taken, on Recommendation 2.




                                                                                            10
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards.13 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The first objective of this audit was to determine whether USAID/Namibia’s bilateral HIV/AIDS
care program was achieving its main goal of caring for and supporting HIV-infected and -affected
individuals. The second objective of this audit was to determine whether USAID/Namibia
effectively implemented recommendations from ―Audit of Selected Partners Implementing
USAID/Namibia’s President’s Emergency Plan for AIDS Relief,‖ Report No. 4-673-08-005-P,
July 31, 2008.

In planning and performing the audit, we assessed USAID/Namibia’s internal controls.
Specifically, we obtained an understanding of and evaluated the mission’s organizational
structure, assistance processes, monitoring and evaluation procedures, and reporting processes.

From USAID/Namibia’s portfolio of care activities, we selected the two primary bilateral
PEPFAR-funded programs for detailed review, covering approximately 73 percent of the total
FY 2010 results reported under PEPFAR’s primary care indicator, while using approximately
62 percent of the total care funding. The two programs selected were IntraHealth’s Namibia
HIV Prevention, Care and Support Project and Pact’s Community REACH Namibia Program.
As of September 30, 2010, USAID had obligated $38.7 million and disbursed $34.8 million to
these programs.

From January 24 to 28, 2011, we conducted extensive planning in Windhoek, where we
interviewed key personnel at USAID/Namibia and implementing partners’ offices. Audit
fieldwork was conducted from March 7 to 18, 2011, with travel to Windhoek and the Oshikoto,
Omusati, and Oshana Regions of the country.

Namibia HIV Prevention, Care and Support Project (IntraHealth). In Windhoek, we visited
the offices of IntraHealth and Catholic Health Services. In the Oshikoto Region, we performed a
site visit at the Onandjokwe Hospital, which is operated by Lutheran Medical Services. In the
Omusati Region, we performed a site visit at the Oshikuku Hospital, which is operated by
Catholic Health Services.

The scope of the audit’s data validation procedures for this project was limited to a comparison
of care indicator data reported by the IntraHealth head office against patient registers, and a
review of the controls in the data collection process. We were unable to validate head office
data against patient files because patient data in the clinics is owned by the Government of
Namibia, and USAID/Namibia did not foresee the audit team’s need to review these data in
order to inform the team of the requirement. When the audit team requested access to these
data, there was not sufficient time for the mission to request and receive consent from the

13
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                               11
                                                                                       Appendix I


Government of Namibia prior to fieldwork. A review of the patient files would have been more
effective than a review of the patient registers because the patient registers lacked detail that
would have allowed the auditors to use a statistically valid sampling approach. Despite this
limitation, the procedures performed do provide a reasonable basis for the audit conclusion.

Community REACH Namibia Program (Pact). In Windhoek, we visited the offices of Pact,
Catholic AIDS Action, LifeLine/ChildLine, and the Ministry of Gender Equality and Child Welfare.
We also performed a site visit at KAYEC’s vocational training facility. In the Omusati and
Oshana Regions, we performed site visits at a Catholic AIDS Action’s home-based care office
and center for orphans and vulnerable children.

We also conducted limited fieldwork at the USAID mission in Pretoria, South Africa, as some
contracting, human resources, and financial management functions are handled by the regional
office there.

Methodology
To answer the audit objective, we first inquired about USAID/Namibia’s PEPFAR portfolio and
reviewed documentation supporting the inquiry. We then judgmentally selected two programs
for review based on (1) award amount, (2) start and end dates, (3) contribution to
USAID/Namibia’s PEPFAR indicator results, and (4) type of funding. The selected programs
represent the two largest in USAID/Namibia’s current bilateral PEPFAR care portfolio, both by
dollar amount and reported results.

We obtained information to understand the HIV/AIDS epidemic in Namibia, including incidence
and prevalence rates and demographic data. We also reviewed applicable laws, best practices,
and guidelines pertaining to care activities implemented under PEPFAR. Specifically, we
reviewed the Tom Lantos and Henry J. Hyde United States Global Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110-293),
PEPFAR reporting requirements, PEPFAR technical guidance, and USAID’s ADS.14

At USAID/Namibia, we met with officials responsible for the selected programs. As applicable,
we interviewed the team leaders, agreement officer’s technical representatives, activity
managers, and subject matter specialists for areas such as gender and environmental practices.
We conducted these meetings to assess the mission’s knowledge and implementation of
PEPFAR and USAID guidance and requirements, and its general familiarity with the selected
programs’ activities. We reviewed documentation provided by USAID/Namibia, such as
agreement documents, work plans, and performance reports, to determine the extent to which
planned results were being achieved. Testimonial evidence was evaluated in conjunction with
other interviews, available documentation, and site visits.

We conducted additional interviews with implementing partners’ and subgrantees’ head and
field offices. Through these interviews, we assessed implementing partners’ knowledge and
implementation of PEPFAR and USAID guidance and requirements. In conjunction with the
interviews, we reviewed documentation provided by USAID/Namibia, such as work plans and


14
  ADS chapters reviewed include ADS 201, ―Planning‖; ADS 202, ―Achieving‖; ADS 203, ―Assessing and
Learning‖; ADS 303, ―Grants and Cooperative Agreements to Non-Governmental Organizations‖;
ADS 320, ―Branding and Marking‖; and ADS 591, ―Financial Audits of USAID Contractors, Recipients,
and Host Government Entities.‖


                                                                                               12
                                                                                        Appendix I


performance reports, and documentation provided by the implementing partners, such as
support for technical assistance.

Namibia HIV Prevention, Care and Support Project (IntraHealth). During site visits to
subpartner-run HIV clinics, we conducted interviews with health facility staff to assess the
implementation of the program’s care activities. We also assessed the level of support provided
to the subpartner by IntraHealth.

As described in the scope section (page 11), we also compared the care indicator data reported
by the IntraHealth head office against patient registers and reviewed controls in the data
collection process.

Community REACH Namibia Program (Pact). During site visits, we conducted interviews
with implementing partner and subpartner staff to assess the implementation of the program’s
care activities. We toured subpartners’ office space and service-delivery locations, and met with
program-funded volunteers. We also assessed the level of support provided to the subpartner
by Pact.

We compared the care indicator data reported by Pact with site-level data. To the extent
possible, we reviewed attendance registers, activity collection forms, and call logs to support the
care services provided. We also reviewed controls in the data collection process.

Given the nature of the audit objectives, no materiality thresholds were established. Rather,
auditors answered audit objective one based on their overall assessments on (1) whether
USAID/Namibia programs aligned with OGAC requirements, (2) if service-delivery targets were
achieved and evidence gathered supported the accuracy of these results, and (3) anecdotal
feedback from beneficiaries and other stakeholders. Auditors answered objective two based on
the status of the actions taken to address previous audit recommendations.




                                                                                                13
                                                                                                       Appendix II



MANAGEMENT COMMENTS
@ ~§~Q NAMIBIA
  ", ......... ndum
  JuI)'26.2011


  l a:                Rob   ""*-tIn,   Acting RegIo",,1 I""peelo. a • ..."uPratorl.

  F"",,:              DotJn .. oa.I, ~I ng ",1.. lon DlrKlor

  ~"tlj . ct:       MI •• lDn Com_nts .", ,ho D",," Audit ~port N", 4-41HO(X-P. 201 1: AUdit
                    of USAlDINlmlbWs HN IAl09 C. r. P"'Il ''''

  Thio   memor~d,""         o:onIo. .... USAlDlN<lmIbl.'. mlnag<:m . nt <:OI'!'<r.enl. to Iho """joel oudt
  ~~       trJ_ on JIm.            10 , 2011 .

  RO.,.,."."O . _ IIIc. 1: W...o;mmond ' hot USAIDlNam l bl~ upams ~ prOCOdOJroe I<>r
  the ......... I ... ort. pion ffti_ proeu. to             i.-.
                                                            'oqui,_ 100- It. complollo n and
  reoI ... of an u n matogy for all)' Impl ....... U"lI p.""", thlll poOWid . . Giro'" ,,""'nco to
  Governmo"" of Namibia mlnlltrt ••.

  USA.lIl'Narnib", oor-.:o,n ., tIo i> .. wnmondallon. B...d ., dl"''''' ~ o "" ..t1h hi Rt9ofJOl
  lnt iJ'lctor   Geno",r. Offi", to clallfy          tile   101 . .. 01 111;0 N:OIYIrnonolalion . lho       "'Yooi
  r<lcommooro:!otloo ..-,rd;'g ..... .....""d 10 ll1e 000.., USAi DINamlbia w.III ~ th.
  C(lI11!>Ietloo ~rd _       01 on 8,il 01,.. 1001 fQr .,/ """",.ming pU"" 1M,t lII'CodOeO. dired
  o'~'!ance \0     G:Mvrl"'."" '"  Namibia minillrif10 ill th!I wnllto1 l""'rocIioo, for Ill. a r"lLJal wort
  pi.n a;>prov.> l prn oe ... The ... inotructiono ... 1 b8 08r'II to .. ~ "' Ve::.. ntt 0 _
  1 . ",,".,.. R.~ • • "I" "" and AdIYity ManlllOrs by Iw\IUM 15. 20 ' 1.


  Rec_""OIlon N<>. 2: W. _"""mond ~hrt USAlDIft.mlDla ... mina Intr_.11I>, in
  wrMl nG. of II. r" pOnaibililie. .r>dOf It. "il ,_JII to on5U'. _ _ " Ired audlto . r•
  .,.....,...-. and _     I nGlifiation I""" IntnH.Kh when prior 0._ ho" bHn
  ....mp_.

  USAIDINo moo         ""'""'~   !NiIh Ihis r=rnm. fKlatjo;n .... ou;:t1 , US"'IDll'lam ti. h... t 8fl\ .   ~tIli r
  (atta<;~) 10    1.,.._tII. ,omm ing tII. m <Jf tI1 .~ ADS 591 ,] .~. 1 "'''''"'''-', 10 obtain ..,
  . """,,1 ...oil h' _"J,S. ~ ",n ~ 1""1                          """.rd
                                                                    mo .. Ihat $300 .000 OK """" in
  Fool ... , fun"" d coriflg • ""'" I )'!lsr. ,.. "'0' G' reQlJc. li>g thorn 10   r>OIifl/ USAIDoNlrN>Il wh.n
  prior ledt. hl V1l bMn C<mIl iootod .

  Bas8d on 11. act"" takOfl """ ... 10 addr .... the ~. U "". the MiI~on '""""IS mo l tros
  1Ind1,," bo d osed ~ Iss.. """ <A 111 . ""'" "'~




                                                                                                                      14
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
